No.

IN THE SUPREME COURT OF THE UNITED STATES

QUINN ALEXANDER MAREZ,
Petitioner
v.
GUILLERMO VIERA ROSA,
Respondent

CERTIFICATE OF WORD COUNT
FOR PETITION FOR A WRIT OF CERTIORARI

I, Wesley Van Winkle, counsel for petitioner, hereby certifies that on this 15th
day of April, 2021, I calculated the number of words in this petition by using the word
count calculator included in Microsoft Word, the word processing system used to
produce this petition. According to that calculator, this brief contains 6444 words,
including footnotes but exclusive of tables of contents, authorities, and appendices.

/s/ Wesley A. Van Winkle
Wesley A. Van Winkle
P.O. Box 2516
Eugene, OR 97402

Counsel for Petitioner

